    U.S. DEPARTMENT OF COMMERCE
              Office of Inspector General
 

 


               Office of the Secretary
                                                       
                                                       
                                                       
                         Commerce Should
              Take Steps to Strengthen
              Its IT Security Workforce
                  
              Final Audit Report No. CAR-19569-1
                                   September 2009
 

 


                 FOR PUBLIC RELEASE 
                                                       

 

 

 

                     Office of Audit and Evaluation
                                                     UNITED STATES DEPARTMENT OF COMMERCE
                                                     Office of Inspector General
                                                     Washington. D.C. 20230




SEPTEMBER 30, 2009

MEMORANDUM FOR:              Dennis F. Hightower
                             Deputy Secretary of Commerce



FROM:                           Brett . Bak r
                        '---"''l.
                             Assistant Inspector General for Audit

SUBJECT:                     Commerce Should Take Steps to
                             Strengthen Its IT Security Workforce

                              Final Audit Report No. CAR-19569-1



This memorandum transmits our final report on our audit of IT security workforce at the
Department of Commerce. The purpose of the audit was to assess the Department's efforts
to develop and maintain an effective IT security workforce to protect its IT systems.

In short, we found that the Department has not devoted sufficient attention to ensuring an
adequate IT security workforce; performance management of the IT security workforce
needs to be improved; and the IT security workforce lacks appropriate security clearances.
We recommended actions the Department should take to address these deficiencies.

 Your September 30,2009, response to our draft report concurs with our audit findings and
commits to addressing our recommendations immediately. We summarize the response in
our audit report and have included it in its entirety as appendix D. We are pleased to note
that the Department has already initiated steps to improve its IT security workforce.

In accordance with Department Administrative Order 213-5, please provide us with an
audit action plan within 60 days of the date of this memorandum. Please accept our thanks
to the Department and its operating units for the courtesies shown to us during our
fieldwork. If you have any questions, please contact me at (202) 482-2600 or Chris Rose at
(202) 482-5558.



cc.:    John F. Charles, deputy assistant secretary for administration
        Suzanne Hilding, chief information officer
                               Report In Brief
                                    U.S. Department of Commerce Office of Inspector General
                                                        September 2009



 Why We Did This Review Department of Commerce IT Security Workforce
With the threat of cyber
attacks looming over gov-     Commerce Should Take Steps to Strengthen Its
ernment and private-sector Information Technology Security Workforce
computer networks, the
Department of Commerce
has become increasingly       What We Found
concerned about the safety
of its sensitive information. In our audit, we discovered that the Department needs to devote more attention to
                              the development and guidance of its IT security personnel who protect the Depart-
The Office of Inspector       ment’s sensitive computer systems and information.
General (OIG) initiated this
audit to address the Depart-       • Few of the operating units we reviewed were taking the necessary steps to
ment’s need for an informa-           meet training requirements or keep accurate training records. Moreover,
tion technology (IT) security         professional development plans were not generally used.
workforce with the skills to
protect Commerce’s IT sys-         • On the whole, performance management and accountability need to
tems against cyber attacks.           improve. We found several instances in which IT security responsibilities
                                    were not included in employees’ formal performance plans. Also, personnel
OIG assessed the Depart-            with significant security roles were not always formally notified of their
ment’s efforts to develop           duties.
and maintain an effective IT
security workforce because       • Finally, we found that some IT security personnel in the operating units
we have long identified in-        we audited did not have the level of security clearance Department policy
formation security as a top        requires. The IT security workforce on the front line of protecting
challenge for management.          the Department’s assets should have levels of clearance commensurate
                                   with their responsibilities.

 Background
Our audit focused on the IT What We Recommend
security personnel at nine
Commerce operating units.
                               To develop and maintain an effective IT security workforce, we recommend Com-
We scrutinized the IT secu- merce implement a Department-wide plan that will address the deficiencies identi-
rity employees’ specialized fied in this audit. We advise Commerce to make necessary revisions to its current IT
training, certification, secu- security policy to support the plan. The plan should include actions to
rity clearances, and profes-
sional development efforts.      • enhance the professional development of personnel with significant IT
                                   security responsibilities, including developing and implementing a
Our sample consisted of ll         requirement for IT security certifications;
information systems at the
operating units. We chose        • identify essential training, ensure workforce members receive appropriate
systems that we believed           role-based and security awareness training, and track the training that has
the Department and op-             been taken;
erating units would place
particular emphasis on           • formally document the roles and duties of employees having significant IT
staffing with experienced          security responsibilities and include IT security as a critical element in
and trained professionals.         their performance plans; and

                                 • provide appropriate security clearances for IT security personnel.
U.S. Department of Commerce                                                                         Final Report CAR-19569-1
Office of Inspector General                                                                                   September 2009



                                                         Contents


Introduction ................................................................................................................... 1
Findings and Recommendations ................................................................................... 5
   I. The Department Has Not Devoted Sufficient Attention to Ensuring An
   Adequate IT Security Workforce................................................................................ 5
      A. Professional IT Security Certifications Are Not Required and Are Not
      Consistently Held .................................................................................................... 5
      B. Few Operating Units Have Identified Role-Based Training Requirements .. 6
      C. Many in the IT Security Workforce Do Not Regularly Receive Role-based
      Training ................................................................................................................... 7
      D. IT Training Is Not Tracked Consistently ........................................................ 7
      E. The Effectiveness of IT Security Training Is Not Evaluated.......................... 8
      F. Professional Development Plans Are Not Generally Used ............................. 8
   II. Performance Management of the IT Security Workforce Needs to Be
   Improved ..................................................................................................................... 9
      A. Employees with Significant IT Security Responsibilities Are Not Formally
      Notified of their Roles on a Consistent Basis......................................................... 9
      B. Performance Plans Do Not Always Contain IT Security Performance
      Elements ................................................................................................................ 10
   III.     The IT Security Workforce Lacks Appropriate Security Clearances ........... 10
Conclusion .................................................................................................................... 12
   Recommendations..................................................................................................... 13
   Other Matters ........................................................................................................... 13
Appendix A: Objectives, Scope, and Methodology ...................................................... 15
Appendix B: Significant Information System Security Roles and Responsibilities .. 17
Appendix C: IT Security Employees Who Received Role-based Training in FY 2007
and FY 2008 ................................................................................................................. 19
Appendix D: Full Text of Agency Response ................................................................ 20
U.S. Department of Commerce                                                   Final Report CAR-19569-1
Office of Inspector General                                                             September 2009


                                                               Introduction
When government computer networks come under cyber attack, whether by foreign
governments, hackers, identity thieves, or terrorists, the consequences can be
catastrophic. In response, the Department of Commerce and our nation as a whole
have become increasingly concerned about protecting information technology (IT)
systems and data.

This audit was prompted by the Department’s need for a more skilled workforce
with the experience necessary to protect its IT systems and information and the
challenges it faces in achieving this goal. The Department uses more than 300 IT
systems to meet its mission of creating economic growth and opportunity by
promoting innovation, entrepreneurship, competitiveness, and stewardship.

OMB Circular A-130, Management of Federal Information Resources, directs federal
agencies to protect government information commensurate with the risk and
magnitude of harm resulting from the loss, misuse, or unauthorized access to or
modification of information. Consistent with Federal Information Processing
Standards Publication 199, Standards for Security Categorization of Federal
Information and Information Systems, 32 of the Department’s systems are
considered high impact, because a security breach can be expected to have a severe
or catastrophic impact on organizational operations, assets, or individuals. The
Department’s other systems are categorized as moderate impact if the potential
adverse impact is serious and low impact if the potential adverse impact is limited.

Our audit focused on the workforce associated with the most sensitive unclassified
systems in the Department, because these systems are highly critical to protect and
should have the best trained and qualified workforce. We reviewed the IT security
workforce responsible for 11 systems at nine Commerce operating units.1 Not all
operating units have high-impact systems, so in those cases we selected moderate-
impact systems to get a broader sample of operating units.

We reviewed workforce in the following operating units:

       •      Bureau of Industry and Security (BIS)
       •      U.S. Census Bureau
       •      International Trade Administration (ITA)
       •      The National Oceanic and Atmospheric Administration’s (NOAA) National
              Environmental Satellite Data and Information Service (NESDIS)
       •      National Institute of Standards and Technology (NIST)
       •      National Telecommunications and Information Administration (NTIA)

                                                            
1
    Eight of the systems we reviewed were high impact; three were moderate impact.


                                                                    1 
U.S. Department of Commerce                                           Final Report CAR-19569-1
Office of Inspector General                                                     September 2009


       •      NOAA’s National Weather Service (NWS)
       •      Office of the Secretary
       •      U.S. Patent and Trademark Office (USPTO)

As a result of our discussions with senior officials during the course of the audit, the
Department has begun to take steps to address many of our findings. We detail the
objectives, scope, and methodology of our audit in appendix A.

IT Security Workforce at the Department

The Department defines the roles and responsibilities of IT security positions in the
Department of Commerce 2009 Information Technology Security Program Policy. IT
security is a Department-wide responsibility; it is not solely the duty of the
Department and operating unit chief information officers (CIOs) and their staffs.
Commerce senior officials are responsible for the day-to-day management and
general supervision of the security of information and technology associated with
their programs and operating units. System owners are accountable for the security
of the systems over which they have day-to-day management and operational
control, including selecting appropriate security controls and ensuring that system
users and support personnel have the appropriate security training.

Department and operating unit CIOs are charged with ensuring compliance with IT
security requirements, developing and maintaining a bureau-wide information
security program, ensuring the training of personnel with significant IT security
responsibilities, and assisting senior agency program officials in carrying out their
IT security responsibilities. To that end, CIOs are tasked with designating a senior
information technology security officer (ITSO) to carry out the CIO’s IT security
instructions. In addition, each system has an information system security officer
(ISSO) who works under the supervision of the system owner. The ISSO advises on
the security considerations associated with the system and implements appropriate
security controls. The Department was unable to provide a complete listing of
officials with significant IT security responsibilities, but it was able to identify more
than 600 such officials.

The roles defined by Commerce’s IT security policy as having significant IT security
responsibilities are in appendix B.

Strengthening the IT Security Workforce Is a Government-wide Challenge

OIG has identified information security as a management challenge for the
Department since 2000. In our November 2008 top management challenges report,2
we stated that the Department faces complex problems when putting proper
information security controls in place. We noted that despite additional
                                                            
2U.S. Department of Commerce, Office of Inspector General, November 2008. Top Management
Challenges Facing the Department of Commerce, OIG-19384. Washington, D.C., p. 6.


                                                               2 
U.S. Department of Commerce                                                 Final Report CAR-19569-1
Office of Inspector General                                                           September 2009


expenditures to mitigate the problem, the Department has reported information
security as a material weakness every year since FY 2001. A material weakness is a
control deficiency or combination of deficiencies that in management’s judgment
should be reported outside the agency. These deficiencies represent significant
weaknesses in the design or operation of internal control and could adversely affect
the organization’s ability to meet its internal control objectives.3
Cyber threats are a moving target, increasing in number and sophistication almost
daily. This makes system security especially difficult. Our management challenges
report observed that in order to be effective in this changing environment, the
Department’s IT security program must be staffed by professionals who have the
appropriate skills and experience to implement required security controls, have the
ability to assess the staff’s effectiveness, and are able to anticipate and respond to
emerging threats.
The need to strengthen the IT security workforce is a challenge for the entire
federal government, not just the Department. Although the Department can take
significant steps to improve its IT security workforce on its own, it is, like all federal
agencies, hampered by an antiquated personnel system that impedes the hiring of
the best qualified workforce. The Partnership for Public Service and Booz Allen
Hamilton reinforce this point in their report on the federal cybersecurity workforce,
stating, “[O]ne of the biggest problems with the process for hiring cybersecurity
talent is the government’s job classification system.”4
At the same time, the 2008 (ISC)² Global Information Security Workforce Study, a
survey of the public- and private-sector workforce worldwide, states that current
threats necessitate that “information security professionals must have the
knowledge, skills and ability to properly address these challenges.”5 The study
shows the levels of education for the cybersecurity workforce increasing—with over
90 percent in the Americas holding a bachelor’s degree or higher.6 Yet the only
federal job classification specifically targeted toward IT security does not require a
college degree.

During the past several years, several federal programs have been implemented to
attract and retain highly-skilled, cyber-savvy individuals by sponsoring
scholarships for students to pursue graduate or undergraduate degrees in the
cybersecurity field. In return, scholarship recipients serve in the federal IT security
workforce for a period of time. These programs include the Federal Cyber Service:
Scholarship for Service, administered by the National Science Foundation in

                                                            
3
  Revisions to OMB Circular A-123, Management’s Responsibility for Internal Control, pp. 18-19.
4 Partnership for Public Service and Booz Allen Hamilton, July 2009. Cyber In-Security:
Strengthening the Federal Cybersecurity Workforce, p. 9.
5 A Frost & Sullivan White Paper Sponsored by the International Information Systems Security

Certification Consortium, Inc. (ISC)², The 2008 (ISC)² Global Information Security Workforce Study,
p. 5.
6 (ISC) 2 Global Information Security Workforce Study, pp. 11-12.




                                                               3 
U.S. Department of Commerce                                                   Final Report CAR-19569-1
Office of Inspector General                                                             September 2009


partnership with the Department of Homeland Security and the Information
Assurance Scholarship Program at Department of Defense (DoD).

In April 2009, Senators John D. Rockefeller (D-W.Va.), Olympia J. Snowe
(R-Maine), Evan Bayh (D-Ind.), and Bill Nelson (D-Fla.) introduced draft legislation
(Cybersecurity Act of 2009) requiring, among other things, all providers of
cybersecurity services to federal agencies to be certified.7 Although this legislation
is still in committee, Congress’s interest reflects a push to further professionalize
the IT security workforce. Similar to the programs mentioned, the bill provides for
scholarships for students to pursue graduate or undergraduate degrees in the
cybersecurity field in return for federal IT security service.




                                                            
7   S.773, Senate Cybersecurity Act of 2009, April 2009. Sections 7 and 10.


                                                               4 
U.S. Department of Commerce                                                       Final Report CAR-19569-1
Office of Inspector General                                                                 September 2009


                                                   Findings and Recommendations



I.       The Department Has Not Devoted Sufficient Attention to Ensuring An
         Adequate IT Security Workforce

The Department has not devoted sufficient management attention and resources to
ensuring it has an adequately skilled IT security workforce. We found deficiencies
in

       •      the identification of training requirements,

       •      adequacy and timeliness of training received,

       •      evaluation of training effectiveness, and

       •      structured professional development of individual workforce members.

In many cases, the Department and its operating units have not complied with the
Department’s own IT security policies and procedures. Also, we found that IT
security certifications are not required and are not consistently held by staff
members. As a result of these factors, Commerce is at risk of not being satisfactorily
prepared to protect its IT assets and information.

       A. Professional IT Security Certifications Are Not Required and Are Not
          Consistently Held

Of the Department’s IT security personnel, ITSOs and ISSOs have the most
technically challenging responsibilities. However, about half of the ITSOs and
ISSOs we covered in our review do not possess professional certifications. For the
nine operating units we reviewed, only four ITSOs possessed relevant IT security
certifications; for the 11 systems we reviewed, six ISSOs held relevant
certifications. Section 4.2.2 of the Department’s Information Technology Security
Program Policy states that the “use of professional certification is at the discretion
of each operating unit.” Therefore, IT security certifications are not required by the
Department.

Certifications demonstrate that an individual has “sought out the knowledge, skills,
and abilities to defend an organization against possible breaches and build up
defenses.”8 Moreover, certification requirements encourage personnel to strive to
develop beyond their present levels of experience and maintain currency in their
fields. Certifications thereby promote professional development and enhance
employees’ effectiveness in performing their roles within the organization.


                                                            
8   (ISC)² Global Information Security Workforce, p. 14.


                                                                5 
U.S. Department of Commerce                                             Final Report CAR-19569-1
Office of Inspector General                                                       September 2009


In 2004, DoD issued a directive establishing a requirement for the credentialing and
continuing education of personnel. DoD requires IT security professionals,
regardless of occupational series, to obtain a commercial information security
credential from a list of approved certifications. They must also maintain their
professional certification through annual continuing professional education. This
requirement applies to all applicable civilian, military, and contract employees. DoD
established an aggressive timetable for full compliance by 2011. The DoD CIO office
informed us that while Defense is making progress, it may not meet its target of
70 percent of its IT security work force—approximately 68,000 professionals—
certified by the end of 2009.

In March 2009, the Government Accountability Office (GAO) testified that
cybersecurity should be made a profession through testing and licensing. 9 The draft
Cybersecurity Act of 2009 proposes to assign the development of a certification
program to the Department of Commerce.

The Cyber In-Security report recommends that for cybersecurity professionals
agencies “include a career path with opportunities to earn appropriate
certifications.”10 We encourage the Department to take a leadership role in the
federal CIO community to work with the Office of Personnel Management to
establish more rigorous requirements for IT security professionals, including
relevant educational requirements for entry-level positions and professional
certification for advancement.

The Department does not have to wait for legislation to implement its own
certification requirements. The Department’s CIO, in consultation with the CIO
Council, should develop certification requirements for Commerce’s IT security
professionals using DoD’s program as a springboard. It should revise its IT security
policy to, at a minimum, require certification for ITSOs, who have lead security
responsibilities within the operating units, and ISSOs, who are on the front line
protecting the Department’s IT assets and information.

       B. Few Operating Units Have Identified Role-Based Training
          Requirements

The Department’s Information Technology Security Program Policy (Section 4.2.2)
specifies that operating units must ensure significant information security roles
(e.g., ITSOs, ISSOs, CIOs, authorizing officials) receive specialized training within
the first 60 days from role appointment notification, and that refresher training
must take place annually.



                                                            
9 GAO, March 2009. National Cybersecurity Strategy: Key Improvements Are Needed to Strengthen
the Nation’s Posture, GAO-09-432T.
10 Cyber In-Security, p. 18.




                                                               6 
U.S. Department of Commerce                                      Final Report CAR-19569-1
Office of Inspector General                                                September 2009


We found that, of the nine operating units we reviewed, only the Census Bureau
has specific requirements for the number of training hours and types of training
needed, and NIST is working on requirements. Most operating units provided no
information on the necessary initial training courses or annual refresher training.
Without specified training requirements, operating units cannot assure appropriate,
sufficient, or timely training. The Department should define a minimum set of
training requirements, to be supplemented by the operating units to address their
particular security concerns.

   C. Many in the IT Security Workforce Do Not Regularly Receive Role-
      based Training

In our audit, we found that IT security professionals at four operating units had not
received training for at least one year. Also, of the personnel we interviewed in the
nine operating units covered in our audit, 35 percent (19 of 55) did not receive role-
based training in FY 2007 or FY 2008.

The results of our FY 2007 and FY 2008 Federal Information Security Management
Act (FISMA) review of role-based training further demonstrate the need for
improvement (see appendix C). Lack of role-based training for IT security
professionals goes beyond the operating units and systems included in our audit
sample. Since training and education are the key factors in the competencies of IT
security employees, it is a serious concern that so many do not receive regular role-
based training.

   D. IT Training Is Not Tracked Consistently

Human Resource Bulletin #076 on training policy requires each bureau to maintain
and report accurate training data. In addition, it requires that as of December 10,
2007, Department of Commerce employees must use the Commerce Learning
Center (CLC), a Web-based training resource, to initiate, approve, and record
completed training. The CLC can identify classes that personnel are enrolled in,
track assignments that have been submitted for instructor approval, and record
courses and assignments staff members have completed.

Section 4.2.3 of the Department’s Information Technology Security Program Policy
“requires operating units to document and monitor individual information system
security training activities including basic security awareness training and specific
information system security training.” The policy further states that “the [CLC]
records documentation shall include the incumbent’s name, role, type of training
received, and the date when training was accomplished or date professional
certification was verified.” However, our audit found that CLC was not being used
to track role-based training. Specifically, we found that:




                                          7 
U.S. Department of Commerce                                      Final Report CAR-19569-1
Office of Inspector General                                                September 2009


   1) six operating units use a database or Excel spreadsheet to track role-based
      training, and

   2) three operating units have their employees track role-based training
      themselves.

We also identified concerns with the tracking of annual IT security awareness
training for some Department employees. The CLC database did not have records
showing completion of IT security awareness training for FY 2008 for almost
18 percent of our sample (out of 26 employees and 2 contractors, 5 did not have
records in the CLC).

Operating units that leave the responsibility of tracking role-based training to their
employees cannot ensure that the training records are accurate, timely, and
consistent with the employee and organizational needs. A centralized system that
identifies expected training, records completed training, and enables periodic review
by management should be used to ensure the appropriate and timely training of IT
security professionals.

   E. The Effectiveness of IT Security Training Is Not Evaluated

Our audit found that training evaluation was not performed at the nine operating
units we reviewed. Consequently, not only are IT security professionals not
receiving training regularly, but Commerce management cannot determine how
effective any training has been. Several operating units told us that obtaining
training resources was difficult and that the quality of courses available from the
CLC was inadequate, which raises the concern that IT security staff members are
not receiving the most helpful training and the Department is not making the best
use of its limited training budget.

NIST Special Publication (SP) 800-16, Information Technology Security Training
Requirements: A Role- and Performance-Based Model, which provides guidelines for
IT security training, states that course evaluation should be a component of an
organization’s IT security program. Evaluating courses measures the quality of the
training programs being offered and ensures limited budget funds are not put
toward ineffective training. If training content is incorrect, outdated, or
inappropriate, the training will not meet the needs of the employees or the
Department.

   F. Professional Development Plans Are Not Generally Used

A development plan is a personal action plan that has been agreed to by the
employee and supervisor. It identifies short- and long-term career goals, the
training and other development experiences (such as completing relevant
assignments or studying materials) needed to achieve those goals, and the time
frame in which the plan is to be accomplished. Specifically, development plans



                                          8 
U.S. Department of Commerce                                       Final Report CAR-19569-1
Office of Inspector General                                                 September 2009


   •   identify and assess future developmental needs or competency areas,

   •   identify structured learning experiences linked to an organization’s goals and
       objectives,

   •   establish agreed-upon developmental activities for the employee’s career
       development,

   •   promote formal career development, and

   •   provide a means to fill employee and organizational competency gaps.

In addition, development plans can serve as a tool for collecting the cost information
needed to establish a strategy for developing and enhancing the skills and
experience of the Department’s IT security workforce.

Of the nine Department operating units we reviewed, only the Office of Secretary
and the Census Bureau consistently used individual development plans to guide the
professional development of their IT security employees and remediate competency
limitations or gaps. The other seven operating units infrequently used individual
development plans. Officials at these seven units told us that plans for the
employees’ professional development were not documented, but that supervisors
and employees discussed training during performance appraisals.



II.    Performance Management of the IT Security Workforce Needs to Be
       Improved

Our audit found that IT security personnel were not always notified of their
responsibilities in writing and that not all personnel with significant IT security
roles had IT security as a critical element within their performance plans.

   A. Employees with Significant IT Security Responsibilities Are Not
      Formally Notified of their Roles on a Consistent Basis

Section 4.2.2 of the Department’s Information Technology Security Program Policy
states that for personnel with significant information security roles, role notification
must be made within the first 10 business days of appointment. Section 3.3.1 of the
policy directs operating unit CIOs to appoint in writing an ITSO to implement the
bureau’s IT security program. However, the Department’s policy does not specify
how staff holding other IT security positions are to be notified of their roles and
responsibilities.
Our audit found that ITSOs did not consistently receive formal written notification
of their roles. We found no written notification for ITSOs at the Census Bureau,
NESDIS, and NIST. We found a similar lack of written notification for ISSO
positions for specific systems at NWS and USPTO, and the written notification of


                                           9 
U.S. Department of Commerce                                           Final Report CAR-19569-1
Office of Inspector General                                                     September 2009


the ISSO position for a NESDIS system was updated during our audit. While the
Department’s IT security policy only requires written notification for ITSOs,
formally communicating duties to all personnel having significant IT security
responsibilities would not only be an effective practice for ensuring they are aware
of their responsibilities, but would also establish an audit trail of management’s
delegation of accountability.

       B. Performance Plans Do Not Always Contain IT Security Performance
          Elements

Department Administrative Order 202-430, Performance Management System,
establishes Commerce’s performance management system for general schedule
employees. The order states, “[P]erformance plans are the documentation of
performance expectations communicated to employees by supervisors. Plans define
the critical elements and the performance standards by which an employee’s
performance will be evaluated.”

The GAO states11 that “performance evaluation and feedback … should be designed
to help understand the connection between employee performance and the
organization’s success.”

Although Department employees were provided regular performance appraisals, we
found several instances in which IT security responsibilities were not included in
their performance plans. With constantly evolving cyber security threats, protecting
the Department’s IT assets and information is a critical part of all employees
having significant IT security responsibilities. Therefore, performance expectations
for IT security should be included as a critical element in employees’ performance
plans and staff should be held accountable for their performance.


III.          The IT Security Workforce Lacks Appropriate Security Clearances

Section 4.13.2 of the Department of Commerce Information Technology Security
Program Policy states that operating unit ITSOs are required to have a top
secret/sensitive compartmented information (TS/SCI) clearance, and a sufficient
subset of support staff is required to have a secret clearance.

Our audit found that ITSOs did not always have the level of security clearance that
the Department’s policy requires. Based on information provided by the Office of
Security, we found that eight of nine ITSOs did not have TS/SCI clearances, and
three of nine ISSOs did not have secret clearances. Lack of appropriate clearances
limits the ability of these employees to obtain complete information on current
cybersecurity threats and vulnerabilities and can reduce their effectiveness in
                                                            
11GAO, November 1999. Standards for Internal Control in the Federal Government, GAO/AIMD-00-
21.3.1.


                                                               10 
U.S. Department of Commerce                                     Final Report CAR-19569-1
Office of Inspector General                                               September 2009


protecting the Department’s IT assets and information. ISSOs, who are on the front
line of protecting the Department’s information assets, should have at least secret-
level clearances.




                                         11 
U.S. Department of Commerce                                       Final Report CAR-19569-1
Office of Inspector General                                                 September 2009


                                    Conclusion

The Department has not been taking the necessary steps to develop and maintain
an effective IT security workforce able to combat the cyber threats that continue to
increase in both number and complexity.

Our audit found that Department management has not devoted sufficient attention
and resources to identifying training requirements, ensuring adequacy and
timeliness of training, evaluating training effectiveness, and structuring
professional development. We also found a lack of formal assignment of
accountability for IT security and inconsistent efforts toward securing appropriate
clearances for IT security personnel. Moreover, the Department and its operating
units have not complied with the Department’s IT security policies and procedures.
As a result, Commerce is at risk of not being satisfactorily prepared to protect its IT
assets and information.

We are particularly concerned with the weaknesses found among the IT security
workforce responsible for high-impact systems, because a security breach would
have a severe impact on these systems. The Department and several operating
units cite a lack of resources as a major impediment to providing adequate training
for IT security personnel. This makes it particularly important for the Department
to establish risk-based training priorities and develop a plan for ensuring adequate
IT security workforce training.

Initial focus should be placed on strengthening the segment of the workforce
responsible for securing the systems that, if compromised, would pose the greatest
threat to the Department’s ability to meet its mission, safeguard its assets, and
protect its information. This risk-based approach would start with training the
workforce responsible for high-impact systems and a prioritized set of moderate-
impact systems. However, even the workforce associated with low-impact systems
needs to be well qualified and trained because vulnerabilities in these systems can
be used to stage attacks on high- and moderate-impact systems on the same
network, including systems outside the Department of Commerce.

In its September 30, 2009, response to our draft report, the Department agreed with
our audit findings and made a commitment to address our recommendations
immediately. The Department’s Office of the Chief Information Officer is partnering
with the Office of Human Resources Management to develop an IT security
workforce improvement program.




                                          12 
U.S. Department of Commerce                                       Final Report CAR-19569-1
Office of Inspector General                                                 September 2009


Recommendations

To develop and maintain an effective IT security workforce, we recommend
Commerce establish and implement a Department-wide plan that addresses the
deficiencies identified in this audit. The plan should include actions to:
   1. enhance the professional development of personnel with significant IT
      security responsibilities, including developing and implementing a
      requirement for IT security certifications for, at a minimum, ITSOs and
      ISSOs;

   2. identify essential role-based training and security awareness training, ensure
      workforce members receive appropriate training, and track the training that
      has been taken;

   3. ensure the individual professional development of members of the IT security
      workforce;

   4. formally document the roles and duties of employees having significant IT
      security responsibilities, and include IT security as a critical element in their
      performance plans;

   5. provide security clearances commensurate with IT positions and
      responsibilities;

   6. identify the resources and time frame needed to implement the plan; and

   7. make necessary revisions to the Department’s IT security policy to support
      the plan.

Other Matters

Developing and maintaining an effective IT security workforce is a government-
wide issue. Therefore, we encourage the Department’s CIO to take a leadership role
on the Federal CIO Council to work with the Office of Personnel Management to
reassess the position requirements for the IT security workforce with the goals of
better defining duties and responsibilities, establishing certification requirements,
and professionalizing the workforce through appropriate educational requirements.




                                          13 
U.S. Department of Commerce                                      Final Report CAR-19569-1
Office of Inspector General                                                September 2009


             Summary of Agency Response and OIG Comments
In responding to the draft report, the Deputy Secretary of Commerce agreed with
the report findings, particularly those pertaining to professional development,
performance management, and security clearances. The Deputy Secretary also
expressed the Department’s commitment to taking immediate action based on our
recommendations. The Department’s Office of the Chief Information Officer is
partnering with the Office of Human Resources Management to develop an IT
security workforce improvement program. We support this partnership.

Where appropriate, we modified this report to incorporate comments from other
agencies. Based on NIST’s remarks, we clarified our position that management and
the CIO share responsibility for ensuring IT security training. NIST also feels that
we should remove the recommendation that Commerce take a leadership role in the
Federal CIO Council to address workforce issues, as the Department is currently
represented at the Federal IT Workforce committee. We should note in response
that our suggestion was not a formal recommendation; however, if the Department
shares any best practices or lessons learned as it corrects its own workforce issues,
other agencies would benefit from our experiences.

BEA cautioned that if a TS/SCI clearance becomes mandatory, the requirement
must be properly worded in vacancy announcements. Our report notes that TS/SCI
clearance is already a requirement, but it is not being followed. We suggest the
Department consider BEA’s suggestion in its plans to address the recommendations
contained within the report. See appendix D for complete agency comments.

We are encouraged that steps have already been initiated to address our
recommendations, and we look forward to the Department’s action plan that will
provide details on the corrective actions to be taken.




                                         14 
U.S. Department of Commerce                                     Final Report CAR-19569-1
Office of Inspector General                                               September 2009


              Appendix A: Objectives, Scope, and Methodology
The objective of our audit was to assess the Department’s efforts in developing and
maintaining an effective IT security workforce to protect its systems and data. We
self-initiated this audit in February 2009 because we recognized the continued
threats to the Department’s computer networks, and we have long identified IT
security as a top management challenge.

Our review focused on systems identified as high and moderate impact because
security breaches of those systems would have the greatest negative impact on the
Department. We expected the Department and its operating units to place
particular emphasis on ensuring these systems were staffed with experienced and
trained professionals.

Specifically, we reviewed the training and professional development, accountability,
and security clearances of IT security personnel responsible for eight high-impact
systems at operating units that had high-impact systems, and at three moderate-
impact systems for operating units that lacked high-impact systems. We performed
a non-statistical random sample of the Department’s more than 300 systems, of
which 32 are high-impact. We initially selected the operating units with high-
impact systems and, in cases in which they had more than one such system, we
randomly selected the system(s) to be reviewed. To broaden our coverage, we
judgmentally selected three additional operating units. For each of these operating
units, we randomly selected a moderate-impact system to include in our review.

We obtained an understanding of internal controls through interviews with
55 employees from the Department’s Office of Chief Information Officer and officials
at nine operating units (BIS, Census, ITA, NESDIS, NIST, NWS, NTIA, Office of
the Secretary, and USPTO). In addition, we collected and reviewed information on
IT security personnel, including their job series, annual performance plans,
professional development plans, receipt of IT security awareness or role-based
training, and level of security clearance.

We held our entrance conference at the Department’s CIO Council meeting in
February 2009 and briefed the Council again on the status and results of our audit
work on June 26, 2009. We also had several meetings with the Office of the Chief
Information Officer to keep it informed on the results of our work.

To assess the reliability of the data from the CLC, we selected a sample of
employees for 2008 and 2009. We found that the CLC database did not always have
accurate information; therefore, we did not rely on the computer-processed data for
the purposes of our audit.

We reviewed the Department’s compliance with applicable provisions of pertinent
laws and regulations, including:



                                         15 
U.S. Department of Commerce                                      Final Report CAR-19569-1
Office of Inspector General                                                September 2009


   •   Federal Information Security Management Act of 2002, 44 U.S.C. § 3541 et
       seq;

   •    OMB Circular A-130, Management of Federal Information Resources;

   •   FIPS Publication 199, Standards for Security Categorization of Federal
       Information and Information Systems;

   •   NIST SP 800-50, Building An Information Technology Security Awareness
       and Training Program

   •   NIST SP 800-37, Guide for the Security Certification and Accreditation of
       Federal Information Systems;

   •   NIST SP 800-16, Information Technology Security Training Requirements: A
       Role- and Performance-Based Model;

   •   Department of Commerce Information Technology Security Program Policy
       introduced by the CIO on March 9, 2009;

   •   Department of Commerce Information Technology Security Program Policy
       and Minimum Implementation Standards issued on June 30, 2005;

   •   Department of Commerce Department Administrative Order 202-430,
       Performance Management System; and

   •   GAO’s Standards for Internal Control in the Federal Government
       (GAO/AIMD-00-21.3.1).

Our audit findings report on instances in which policies and procedures were not
met. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence that provides a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

We conducted our review from February 2009 through September 2009 under the
authority of the Inspector General Act of 1978 and Department Organization Order
10-13. We performed our work at the Department of Commerce headquarters in
Washington D.C.; NIST in Gaithersburg, Maryland; NWS in Silver Spring,
Maryland; the Bureau of Census in Suitland, Maryland; and USPTO in Alexandria,
Virginia.




                                         16 
U.S. Department of Commerce                                              Final Report CAR-19569-1
Office of Inspector General                                                        September 2009


    Appendix B: Significant Information System Security Roles and
                           Responsibilities



Commerce Position                                             Role


                                Designates a senior information security officer; develops
                                and maintains information security policies, procedures, and
Chief Information Officer
                                control techniques; and trains and oversees personnel with
                                significant information security responsibilities.


                                Designates a senior information security officer; develops
Chief Information Security      and maintains information security policies, procedures, and
Officer                         control techniques; and trains and oversees personnel with
                                significant information security responsibilities.



                                Provides the overall management, leadership, and direction
Operating Unit Chief            to operating unit security programs, including training and
Information Officer             overseeing personnel with significant responsibilities for IT
                                security and appointing an ITSO in writing.



Operating Unit Information      Has the lead responsibility for IT security within the
Technology Security Officer     organization.


Information System Security     Ensures the appropriate operational security posture is
Officer                         maintained for specific information systems.



                                Assumes responsibility for operating information systems at
Authorizing Official            an acceptable level of risk by granting an authorization to
                                operate. Authorizing officials may be line officials or CIOs.




                                A line office official responsible for deciding access to the
Information Owner/Information
                                information system and ensuring that system users and
System Owner
                                support personnel receive the requisite security training.




                                             17 
U.S. Department of Commerce                                              Final Report CAR-19569-1
Office of Inspector General                                                        September 2009



Commerce Position                                             Role



                                Is responsible for conducting a security certification, or
                                comprehensive assessment of the management, operational,
                                and technical security controls in an information system, to
Certification Agent
                                determine the extent to which controls are implemented
                                correctly, operating as intended, and producing the desired
                                outcome with respect to meeting system requirements.


                                Are responsible for analyzing and reducing cyber threats and
                                vulnerabilities, disseminating cyber threat warning
IT Security Incident Response   information, coordinating incident response activities, and
Personnel                       interacting with the Federation of Computer Incident
                                Response Teams and others to disseminate reasoned and
                                actionable cyber security information.


                                Are officials identified in Continuation of Operations, disaster
                                recovery, and IT contingency plans that are responsible for
Key Contingency Roles
                                ensuring respective plans are maintained, tested, integrated
                                with other plans, adequate in scope, and relevant.




                                             18 
U.S. Department of Commerce                                        Final Report CAR-19569-1
Office of Inspector General                                                  September 2009


     Appendix C: IT Security Employees Who Received Role-based
                   Training in FY 2007 and FY 2008



                                                                  Percentage
                                                     Employees    (%) of
                                       Employees
                                                     Who          Employees
            Operating Unit Reviewed    Requiring
                                                     Received     Who
            for FISMA                  Role-based
                                                     Role-based   Received
                                       Training
                                                     Training a   Role-based
                                                                  Training

            Operating Units Examined in FY 2007

               USPTO Patents               147           84             57

               NIST                        131           99             76

               NOAA/NOS                     31            8             26

               NTIS                         27           23            85

               EDA                           4            4            100

            Operating Units Examined in FY 2008

               NOAA/NESDIS                  62           38             61

               BIS                           8            4             50

               BEA                           3            3            100

               USPTO Trademarks              3            3            100

          Source: 2007 and 2008 OIG FISMA Reports

          As reported in OIG’s FY 2007 and FY 2008 FISMA evaluations




                                           19 
U.S. Department of Commerce                             Final Report CAR-19569-1
Office of Inspector General                                       September 2009


                   Appendix D: Full Text of Agency Response




                                                                               


                                      20 
                 Comments on draft OIG IT Security Workforce Audit

Operating Unit           Comments


The Department of        DOC/OS agrees with the introduction of the audit report that IT
Commerce, Office of      security is not just the responsibility of the Chief [nfonnation Officer
the Secretary            (CIO), but rather a broader shared responsibility. For this reason, we
(DOC/OS)                 are pmtnering with the Office of Human Resources Management to
                         develop an IT Security workforce improvement prograJn (Audit
                         Report, page 2).

The National Institute   NIST suggests that: (I) management is responsible for ensuring that
of Standards and         staff receive appropriate training in their programs and operating
Technology (NIST)        units; (2) ClOs are responsible for local policies regarding training,
                         and for ensuring that policies are complied with and that training is
                         received; and (3) local management-not the CIO--are responsible
                         for ensuring that staff in programs and operating units are qualified to
                         do their (security) work (Audit repOlt, page 2).

                         NIST reported that a few references in the draft (Cybersecurity Act of
                         2009) should be removed. NIST has concerns that the bill is not yet
                         out of Congressional committee and that the Senate bill does not have
                         a House companion bill. Dozens of bills on cybersecurity have been
                         introduced in previous Congresses, and few become law (Audit
                         repOlt, page 3).

                         NIST responded that the recommendation that DOC take a leadership
                         role in the Federal CIO Council to address workforce issues should be
                         removed. The Department is currently being represented at the
                         Federal IT Workforce committee (Audit repOlt, page 13).

The Bureau of            In practice, the requirement discussed in Paragraph III appears to be
Economic Analysis        overstated. In BEA, TS/SC[ data is not meant to be used at the
(BEA)                    operational level. A better solution would be to have a Senior
                         Intelligence Officer at DOC with authority to sanitize compartmented
                         information to which the operating units need to respond. [f a TS/SCI
                         clearance becomes mandatory, it is imperative that the requirement be
                         worded properly on a job announcement to avoid a "Catch-22"
                         scenario. SCI clearances do not transfer from one organization to
                         another (Audit report - page 10).
